CERTIFICATION
As required by Supreme Court Rule 33.1(h), I certify that the document contains 8,992 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on July 20, 2020

James W. Perkins
GREENBERG TRAURIG, LLP
200 Park Avenue
New York, New York 10166
212-801-9200
perkinsj@gtlaw.com
Roberto Martinez
COLSON HICKS EIDSON, P.A.
255 Alhambra Circle,
Penthouse
Coral Gables, Florida 33134
305-476-7400
bob@colson.com
Counsel for Petitioner

